                                                   UNITED STATES OF AMERICA
                                            FEDERAL TRADE COMMISSION
                                                     WASHINGTON, D.C. 20580



Office of Inspector General




                                                                    July 29, 2005


      MEMORANDUM

            TO:               James Baker
                              Acting Chief Financial Officer

       FROM:                  Howard Sribnick
                              Inspector General

  SUBJECT:                    Review of FTC Credit and Travel Card Active Account Lists


      Recent reports by the Government Accountability Office and Inspectors General, as well as
      congressional hearings and press reports, have raised serious concerns regarding the adequacy of
      internal control systems that monitor the use of the more than 2.5 million Government credit
      cards in circulation. To date, millions of dollars of fraudulent and unauthorized expenditures
      have been made using these cards. While the purchase and travel card programs have increased
      efficiency in the federal acquisition process, they have also created opportunities for fraud and
      abuse.

      The Office of Inspector General (OIG) has reviewed controls in these card programs both as a
      separate audit effort and as part of its annual financial statement audits with mixed results. For
      example, the OIG found in its review of purchase cards that the assistant CFO for Acquisitions
      reviews all transactions charged to the card and questions cardholders about suspicious card
      activity. On the other hand, past reviews of the travel card program revealed some personal use
      of the card by FTC staff.

      The objective of this inspection was to assess how well the agency cancels card accounts
      belonging to employees who leave the agency. Cancellation of the account prevents potential
      abuse by the cardholder.

                                                   Overview

      FTC employees participate in two credit card programs. In both instances the cards are to be
      used for official government purchases only, and only by authorized staff. The programs differ
      by the purpose of the card and the number of FTC staff provided with each card.


      The purchase card program is administered by the Acquisitions Office within FMO. The
purpose of the purchase card program is to simplify the acquisitions process by enabling staff to
make small purchases of acceptable goods and services (generally each under $2,500). This
reduces the amount of paperwork required to purchase an item and the number of people
involved in the purchase, thus saving administrative costs. Monthly invoices are sent to the
Acquisitions office where they are coded and approved for payment by the FTC’s payment
office. As of March 2005, there were 80 staff assigned a purchase card.

The travel card program is managed by the Assistant CFO for Finance. The agency requires
employees to use the travel charge card to obtain transportation fares, hotel accommodations,
and rental cars, and any other subsistence and miscellaneous travel expense that can be charged.
Invoices are sent directly to and are paid by the traveler after the traveler submits the travel
voucher for reimbursement. There is no review of charges to determine whether card use is for
travel-related purposes only. Travel cards are provided to all Commission staff who have a
reasonable expectation of job-related travel.

When employees leave the agency, they are required to follow the agency’s check-out process.
As part of this process, credit card holders notify program officials in Acquisitions and Finance
that they are leaving, or separating from, the agency. These officials then deactivate the card in
that person’s name. The OIG has noted in past reports that some staff bypass the checkout
process, or parts of it. The controls lie in the cancellation of the card, not the collection of the
card for the departing employee. Active accounts for separated employees, regardless of
whether employees are in possession of cards, are a vulnerability that could allow fraud on the
credit program to occur.


                                     Purchase Card Inspection

The OIG compared the March 2005 Citibank list of active purchase card accounts to recent FTC
separation reports.1 Comparison of the two databases found no separated cardholders with
active purchase accounts.

                                      Travel Card Inspection

The OIG compared the March 2005 Citibank list of active travel card accounts to recent FTC
separation reports. The OIG identified 13 former employees who still had active accounts with
Citibank. The former employees left the agency between November, 2003 and January, 2005.
The OIG determined that none of the accounts had any activity during the period of employee
separation. The OIG provided the names to the Assistant CFO for Finance to cancel the
accounts. Upon receipt of the names, Finance staff immediately deactivated these accounts.




        1
         Separation reports contains the names of staff who have left the agency. The OIG selected
separation reports from 10/01/03 – 1/31/05.

                                                 -2-
                                           Conclusion

The consequences of a breakdown in controls in the purchase card program are more significant
than the travel card program because the agency, not the employee, is responsible for the charges
made on the card. Controls to cancel accounts belonging to separating employees for this
program appear to be working.

On the other hand, the OIG believes that controls to cancel travel card accounts should be
strengthened. As the names of separating employees are known to the program manager, it
appears that Citibank was simply not notified timely. Citibank officials told the OIG that it
would require no more than a few days to close an account.


                                     OIG Recommendation

The OIG recommends that the list of active accounts be cross checked against the agency’s
separation report at least monthly to identify active accounts belonging to former employees.
These accounts should then be cancelled.




                                               -3-
